<html>
<title> - OVERVIEW OF THE 2006 HURRICANE SEASON</title>
<body><pre>[Senate Hearing 109-768]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-768
 
                 OVERVIEW OF THE 2006 HURRICANE SEASON

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      JUNE 7, 2006--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
30-871                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                  RICHARD C. SHELBY, Alabama, Chairman
JUDD GREGG, New Hampshire            BARBARA A. MIKULSKI, Maryland
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
SAM BROWNBACK, Kansas                TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia
    officio)                           (ex officio)
                           Professional Staff
                              Art Cameron
                              Allen Cutler
                              James Hayes
                           Rachelle Schroeder
                             Goodloe Sutton
                        Paul Carliner (Minority)
                      Gabrielle Batkin (Minority)
                        Alexa Sewell (Minority)
                      Kate Fitzpatrick (Minority)

                         Administrative Support
                             Augusta Wilson


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Richard C. Shelby...................     1
Statement of Senator Barbara A. Mikulski.........................     2
Statement of Vice Admiral Conrad C. Lautenbacher, Jr. (USN, 
  Ret.), Under Secretary of Commerce for Oceans and Atmosphere; 
  and Administrator, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................     3
Dr. Louis W. Uccellini, Director, National Centers for 
  Environmental Prediction, National Weather Service, Department 
  of Commerce....................................................     3
Hurricane-related Support........................................     4
2006 Atlantic Hurricane Season Outlook...........................     4
Multi-decadal Climate Patterns...................................     5
National Oceanic and Atmospheric Administration Efforts to 
  Improve Hurricane Predictions..................................     6
Hurricane Preparation............................................     6
Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr....     7
NOAA Provided Critical Information and Support Before and After 
  the 2005 Hurricanes............................................     7
2006 Atlantic Hurricane Season Outlook...........................     8
Multi-decadal Climate Patterns...................................     8
NOAA Efforts to Improve Hurricane Predictions....................     9
Aircraft Reconnaissance Data.....................................    10
NOAA Encourages Everyone to Prepare..............................    10
Biographical Sketch of Conrad C. Lautenbacher, Jr................    11
Biographical Sketch of Dr. Louis W. Uccellini....................    12
Statement of Dr. Louis Uccellini.................................    13
Prediction of Future Storm Activity..............................    13
Staffing for Forecasters.........................................    14
Hurricane Season Preparedness....................................    14
Technical Support................................................    16
Evacuation Routes................................................    17
National Centers for Environmental Prediction....................    17
Information Processing and Prediction Cycle......................    18
Hurricane Prediction Model.......................................    19
Surge Prediction.................................................    20
Hurricane Liaison Team...........................................    21
Tsunami Preparedness.............................................    22
Deepwater Detection Buoys........................................    23
Addressing the Gaps Remaining in Tsunami Preparedness............    24
Notification of Governors........................................    25
Weather Prediction...............................................    25
Storm Surge Forecasts............................................    26
Coastal Zone Management Act......................................    27
National Oceanic and Atmospheric Administration Priorities.......    27


                 OVERVIEW OF THE 2006 HURRICANE SEASON

                              ----------                              


                        WEDNESDAY, JUNE 7, 2006

                           U.S. Senate,    
         Subcommittee on Commerce, Justice,
                     Science, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Mikulski, and Murray.


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Good morning. This hearing will come to 
order.
    We are here to discuss the important upcoming hurricane 
season. This is an important topic, and one that will get 
considerable attention in the months ahead as we reflect on the 
devastating 2005 hurricane season.
    We're pleased to have with us today the Under Secretary of 
Commerce for Oceans and Atmosphere, Vice Admiral Conrad 
Lautenbacher. He is joined by Dr. Louis W. Uccellini, the 
Director of the National Weather Service, National Centers for 
Environmental Prediction. Thank you both for appearing before 
the subcommittee.
    I would like to extend my appreciation to Dr. Uccellini, 
who is making a last-minute appearance, as Max Mayfield was 
unable to join us.
    I would like to begin by commending NOAA for its work 
surrounding last year's hurricanes. Predictions for Hurricane 
Katrina were especially well prepared, and undoubtedly saved 
countless lives. The work that goes into forecasting these 
storms should not be taken for granted. Congress recognizes the 
extraordinary effort and critical expertise NOAA provides the 
Nation. Emergency coordination after the storm is critical to 
helping our coastal communities. When it came to post-hurricane 
support, NOAA was one of the Federal agencies that provided 
quick, competent response on the water, in the air, and on the 
ground.
    The Office of Coast Survey mapped the ports for the purpose 
of safe navigation so they could reopen quickly. NOAA's Cessna 
Citation aircraft flew two to three missions each day, stopping 
only to refuel, to provide aerial photography of the affected 
areas. The National Weather Service provided emergency 
responders with realtime weather updates directly from the 
local weather offices to those in the field.
    The Office of Response and Restoration continues to help 
coordinate and mitigate marine debris removal. These services 
directly helped local and State emergency responders 
immediately following the hurricanes.
    As we enter the 2006 hurricane season, the subcommittee 
will be looking for you to use the lessons learned from last 
year to make good decisions this year. We're very interested in 
hearing about the communication and coordination shortfalls you 
had identified during your post-hurricane evaluations last 
year, how you have prepared to overcome those challenges now, 
and what additional measures need to be taken to address any 
future challenges that NOAA recognizes may be problematic. Only 
by generating a systematic and clear list of your needs can 
Congress better serve you.
    Gentlemen, we look forward to your testimony today. All of 
your written testimony will be made part of the record.
    Senator Mikulski.


                STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. Thank you very much, Mr. Chairman. And I 
want to thank you for your leadership in conducting this 
hearing. Because you and I are coastal Senators, we are 
absolutely, of course, directly impacted by hurricanes. What 
you lived through in the gulf, along with our colleagues, was 
stunning.
    I, too, want to welcome Admiral Lautenbacher, Dr. 
Uccellini. Why do I know how to say his name? He's a Maryland 
constituent.
    Senator Shelby. You're doing better than I'm doing.
    Senator Mikulski. Well, if you can get through Mikulski, 
you get to Uccellini.
    And, also, we wish Max Mayfield, the head of the Hurricane 
Prediction Center, well. We want to compliment NOAA on the fact 
that, at the Hurricane Prediction Center, they have a familiar 
and trusted voice. We've heard Mr. Mayfield over the years, and 
I think all of America knows, when we need to know about 
hurricanes, it comes out of one place, one voice, and that 
voice is viewed as trusted. And we need to make sure that's 
happening.
    This is a very timely hearing, because it's the first week 
of hurricane season, which will go from now until mid-October. 
NOAA, alarmingly, predicted that 2006 will be very active. Up 
to six hurricanes could be a category 3. What we need to make 
sure is that we have the most accurate prediction. Better 
prediction means better protection. And we know our mutual 
motto is, ``Saving lives and saving properties.'' We know that 
it only takes one hurricane to devastate a community.
    Mr. Chairman, on Monday I visited NOAA's National Centers 
for Environmental Prediction, in Camp Springs, Maryland, in 
Prince George's County. It's a tremendous national asset, 
developing and operating models for forecasters to predict 
where hurricanes will make landfall, how intense that hurricane 
is, and how--what is the surge, to predict how much flooding 
could either come up my bay, the gulf coast, or inland 
flooding. The models that they develop there are the roadmaps 
for weather forecasters nationwide. Without the experts in Camp 
Springs, the Hurricane Center cannot do its job. So, it's very 
important that--and if you went out there, you see that they're 
working on hurricanes, helping predict the conditions that 
could precipitate the wildfires, and many others. It is, kind 
of, the brain center, with the supercomputing model being--the 
supercomputer being in Gaithersburg. Why is that good? Well, 
not only do--am I proud that it's in my State, but they are 
literally out of, in many ways, harm's way of a hurricane. So, 
people think the Hurricane Center is in Miami, but that's in 
harm's way, and, as you know, from Katrina, when our own 
defenders and predictors go down, then there's only more 
vulnerability.
    So, today we need to know, How good are we at predicting, 
what we can do to work with you. What--I will tell you, what I 
was so impressed with was, sure, I saw new mathematical models; 
sure, I saw innovative technology; but, Mr. Chairman, what I 
saw were people--forecasters, mathematicians, all types of 
scientists--who read and analyze data. And we're lucky to be 
able to recruit them, and we need to also focus on how we can 
retain them. We need to make that weather service better, 
faster, stronger. They've got the will. Now let's you and I 
work together to find the wallet.
    I look forward to hearing the testimony.
    Senator Shelby. Thank you, Senator Mikulski.
    Admiral, we'll start with you.

STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. 
            (USN, RET.), UNDER SECRETARY OF COMMERCE 
            FOR OCEANS AND ATMOSPHERE; AND 
            ADMINISTRATOR, NATIONAL OCEANIC AND 
            ATMOSPHERIC ADMINISTRATION, DEPARTMENT OF 
            COMMERCE

ACCOMPANIED BY DR. LOUIS W. UCCELLINI, DIRECTOR, NATIONAL CENTERS FOR 
            ENVIRONMENTAL PREDICTION, NATIONAL WEATHER SERVICE, 
            DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you, Mr. Chairman.
    Senator Shelby. Proceed as you wish.
    Admiral Lautenbacher. Yes, sir.
    Thank you very much, Mr. Chairman and ranking member, 
Senator Mikulski, and distinguished members of the subcommittee 
and the staff. We appreciate the opportunity to appear before 
you and discuss the topic of the day.
    First let me express my regrets for Max Mayfield, who could 
not be here today. We appreciate you giving him a bye. He has 
bronchitis, and we want to make sure he's ready for the season.
    But I have with me today, as you mentioned, Dr. Louis 
Uccellini--we'll just call him Louis--the head of the National 
Weather Service, National Centers for Environmental Prediction.
    Senator Shelby. I think we have his name down now, 
Uccellini.


                           OPENING STATEMENT


    Admiral Lautenbacher. But, as we all know, Max is well 
known by the public, but this man should be just as well known, 
because his work--he's really the head of the brain of NOAA, in 
terms of providing the weather forecasts that go out all over 
the Nation to all of our forecast offices. So, every prediction 
that you see out there in forecast has a bit of Louis in it, in 
the work that he does. So, it's a very important role that he 
plays, and he does it well, and I'm proud to be associated with 
this organization and the people who work in NOAA. They are 
very dedicated, talented individuals.
    I also want to express my gratitude to you and the 
subcommittee for your support and hard work on our behalf. It 
has allowed us to continue to support the Nation, as required, 
and we're very, very grateful for the kinds of support and 
interest that we have from this subcommittee. For instance, the 
hurricane supplemental funding that was approved recently has 
been fully distributed and is now being used, as directed. It 
includes funding for forecast model improvements, storm surge 
and inland hurricane forecasting improvements, and the 
procurement of an additional Hurricane Hunter aircraft. Thank 
you, again, for your support. This support will make a big 
difference in our ability to improve our forecasts for the 
future.


                       HURRICANE-RELATED SUPPORT


    Just a couple of comments on the--on last year's season, 
because of its record-breaking issues, in many ways. From our 
perspective, hurricane forecasts for Katrina and Rita were some 
of the most accurate ever for storm track, size, intensity, 
surge, and warning leadtime, allowing for evacuation of 85 to 
90 percent, or more, of the Texas and Louisiana coasts. And 
while Katrina and Rita are blamed for over 1,200 deaths, it may 
well have been much, much worse, as we all know.
    And, as the chairman mentioned, our work does not end with 
the forecasts. We immediately responded, after the destructive 
hurricanes had passed, by providing the aerial images, by 
providing realtime storm tide-level information to emergency 
responders, employing satellite imagery to determine coastal 
impacts, assessing the hazardous materials spills, surveying 
critical ports and waterways, redirecting NOAA ships to 
impacted areas, and contributing $4.3 million from our budget 
to States for environmental enforcement after the event.
    Our wide-ranging capabilities continue to support the 
impacted areas even now, with response to spills, maritime 
incidents, rebuilding fisheries, and delivering consistent and 
timely geodetic height information very important to 
restoration. NOAA can, and will, continue to bring more to the 
table than just our forecasts. And, again, your continued 
support of NOAA, across the board, is critical to our ability 
to add value to science for the American people, and we 
appreciate the total support that NOAA gains from this 
subcommittee.


                 2006 ATLANTIC HURRICANE SEASON OUTLOOK


    Now, for the 2006 Atlantic hurricane season, everywhere we 
go, this is an important question. People want to know how many 
hurricanes there will be, and if one will hit their area. The 
news media--and this hearing, I might add--also gives our 
seasonal forecasts high visibility, helping to raise awareness 
about the threat of hurricanes. I thank you, again, for this 
opportunity to raise that awareness.
    The official season, as mentioned, started June 1, and goes 
through November 30, with the average peak of hurricane 
activity occurring with the warmest water temperatures, from 
mid-August to late October. Our prediction for this year's 
Atlantic hurricane season is for 13 to 16 tropical storms, with 
8 to 10 becoming hurricanes, of which 4 to 6 could become major 
hurricanes. For comparison, on average, the North Atlantic 
hurricane season produces 11 named storms, with 6 becoming 
hurricanes, including 2 major hurricanes. A major hurricane is 
a storm category 3 or higher on the Saffir-Simpson hurricane 
scale, which means winds greater than 110 miles per hour. Major 
hurricanes cause about 80 percent of the damage sustained from 
tropical cyclones. This year's forecast has an 80 percent 
likelihood of an above-average number of storms in the Atlantic 
basin. That's the highest level of confidence we've had in a 
number of years.
    Our forecast for this season is based primarily on the 
continuing multidecadal signal in the global tropics. This 
year, the signal indicates favorable atmospheric--including 
wind and pressure patterns--and oceanic--warm sea-surface 
temperature--conditions for hurricane formations.
    Another question that is frequently raised is the role 
climate change plays in hurricane frequency and intensity. This 
is an extremely important issue to NOAA. Our meteorologists and 
research scientists in several areas of our organization are 
actively engaged in ongoing research to better understand how 
climate variability and change may impact hurricane frequency 
and intensity.
    Last year was a record-setting season: 28 storms, 15 
hurricanes, of which 7 became major. We saw, all too vividly, 
the destruction and devastation hurricanes can cause. This is 
why it is important not to focus only on the total number of 
storms. The message is that we all need to be prepared.


                     MULTI-DECADAL CLIMATE PATTERNS


    We have observed that steering patterns for major hurricane 
landfalls can sometimes persist over several years. During the 
1940s, many major hurricanes hit Florida. During the 1950s, the 
focus of landfalling hurricanes shifted to the U.S. east coast. 
And during the 1960s, the central and western gulf coast were 
slammed by several hurricanes. This pattern might lead someone 
to assume, given the recent major hurricanes, like Charley, 
Ivan, Jean, Dennis, Katrina, Rita, and Wilma in the last 2 
years, that Florida and the gulf coast are likely targets again 
this season. However, there are always exceptions, and it only 
takes one hurricane, over a given community, to make it a bad 
year.
    In 1983, for instance, there was only one landfalling 
hurricane in the United States, but it was category 3 Hurricane 
Alicia, which hit the Galveston and Houston area. And in 1992, 
we likewise, had only one hurricane. That was category 5 
Hurricane Andrew. The point of this is that no one can tell us 
reliably, months in advance, when or where hurricanes are going 
to strike. The state of science is simply not advanced enough 
at this time to do that. The bottom line is that all coastal 
States, from Texas to Maine, including Alabama and Maryland, 
Hawaii, and other U.S. interests in the Pacific and the 
Caribbean, are vulnerable to the devastation brought by a 
hurricane. Our message is consistent. We want every business, 
every family, every individual, and every community on or near 
the coast to have a hurricane preparedness plan, and have it in 
place at the start of the hurricane season.


  NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION EFFORTS TO IMPROVE 
                         HURRICANE PREDICTIONS


    Now, improving hurricane forecasting is a top priority for 
the administration. NOAA has made great strides in improving 
our hurricane track forecasting. Our 5-day forecasts are now as 
accurate as 3-day forecasts were 15 years ago. NOAA spends over 
$300 million per year to track and forecast hurricanes. For 
2007, we are requesting $109 million in increases for 
hurricane-related investments. We are focusing our hurricane 
efforts on improving hurricane track and intensity forecasting 
through improved observations, modeling, and the continuation 
of a very effective method called ``joint hurricane testbeds.''
    Our equipment is also critical. NOAA aircraft, the P-3 
Orions and the Gulf Stream IV, provide essential observations 
and data critical to the National Hurricane Center forecasters 
and supplement the U.S. Air Force reconnaissance flights. The 
$14.2 million that NOAA received in the 2006 supplemental 
appropriations to improve future aircraft service will add an 
additional P-3 next year and upgrade the radar and 
instrumentation on all of NOAA's aircraft, an important 
investment.


                         HURRICANE PREPARATION


    We encourage everyone to prepare. We work year-round with 
Federal, State, and local emergency managers. We educate them 
about weather effects from hurricanes, and they educate us 
about response issues and their challenges. It is a constant 
learning process, and the key is working together to ensure the 
public takes appropriate action.
    Most preparedness activity and outreach take place outside 
the hurricane season. Last month, as part of our ongoing 
mission to enhance economic security and national safety, NOAA 
led a hurricane awareness tour along the gulf coast. The tour 
helped raise awareness about the potential effects from a 
hurricane landfall with the Federal Emergency Management Agency 
(FEMA), local governments, emergency managers, schools, the 
public, and the media, in a team effort to increase hurricane 
awareness and encourage preparedness in this vulnerable area of 
the Nation.
    During landfalling storms, it is essential for the 
emergency management community and the weather community to 
have one message for the public so that businesses and people 
can take appropriate action. Nowhere is this more critical than 
in areas most vulnerable to the impact of a hurricane.
    In conclusion, the truth is no one knows exactly what areas 
of the coast, or which States, or locations within those 
States, if any, will be impacted by hurricanes in 2006. Could 
it be Florida again? Maybe. How about New England or New York 
City? That's possible, but, right now we just do not know. We 
also need to remember that a hurricane is not just a coastal 
event. The strong winds, heavy rains, and tornados from 
weakening tropical systems can spread well inland and cause 
tremendous damage.
    Having said that, Katrina is a grim reminder that the 
greatest potential for large loss of life is from the storm 
surge near the coast. The bottom line is that all coastal 
States and territories are at risk. Everyone along the coast 
must be prepared well in advance to protect their lives and 
property in the event of a hurricane.
    Again, thank you to the subcommittee for your support and 
your interest in holding this hearing. We are ready to answer 
your questions.
    Thank you, sir.
    [The statement follows:]

     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.

    Chairman Shelby, Ranking Member Mikulski and Members of the 
Committee, I am Conrad C. Lautenbacher, Jr., Under Secretary for Oceans 
and Atmosphere and Administrator of the National Oceanic and 
Atmospheric Administration (NOAA) in the Department of Commerce (DOC). 
I am joined by Dr. Louis Uccellini, Director of NOAA's National Weather 
Service, National Centers for Environmental Prediction. Thank you for 
inviting us here today to discuss the outlook for the 2006 Hurricane 
Season, and to talk about what we can each do to be best prepared to 
protect lives and livelihoods in the event of a hurricane.
    First, let me express my sincere gratitude to the members of this 
Committee. Your continued support of NOAA and our hurricane program 
enables us to make the best forecasts possible, helping ensure the 
people of our Nation understand the potential impacts from hurricanes 
and what they can do to protect their life and property. The fiscal 
year 2006 Hurricane Supplemental Funding approved by Congress has been 
fully distributed and is being used as directed, including funding 
forecast model improvements, storm surge and inland hurricane 
forecasting improvements, and the procurement of an additional 
Hurricane Hunter aircraft. Thank you again for your support.

  NOAA PROVIDED CRITICAL INFORMATION AND SUPPORT BEFORE AND AFTER THE 
                            2005 HURRICANES

    Before I discuss the details of the 2006 hurricane outlook, I would 
like to briefly highlight one of NOAA's most notable successes in 
recent memory--our performance during the 2005 season.
    Among our many hurricane-related missions, NOAA has the primary 
responsibility to provide weather data, forecasts and warnings for the 
United States and its territories. NOAA's forecasts and warnings for 
Hurricane Katrina and Hurricane Rita pushed the limits of state-of-the-
art hurricane prediction. NOAA's National Weather Service (NWS) 
operates the most advanced weather and flood warning and forecast 
system in the world, helping to protect lives and property and enhance 
the national economy. In partnership with the Department of Defense, 
NASA, the National Science Foundation, other federal agencies, and the 
academic community, the long-term continuous research efforts, 
including observations, modeling, and expanded computational resources 
have led to NOAA's current predictive capabilities and improved ways of 
describing uncertainty in prediction. Reconnaissance data from NOAA and 
Air Force Reserve aircraft provided critical data NOAA forecasters used 
for their accurate hurricane predictions. Hurricane forecasts for 
Katrina and Rita were some of the most accurate ever for storm track, 
size, intensity, surge, and warning lead time, allowing for evacuation 
of 85-90 percent or more of the Texas and Louisiana coasts. While 
Katrina and Rita are blamed for over 1,200 deaths, it may well have 
been much, much worse.
    But NOAA's work does not end with the forecast. This was 
particularly evident last August, when NOAA responded immediately to 
the destructive hurricanes in several ways. NOAA provided over 9,500 
aerial images of the impacted coastline to help emergency responders 
assess the situation, analyzed satellite imagery to determine the 
coastal impacts, and sent Scientific Support Coordinators to address 
nearly 400 hazardous material spills. We also sent Navigation Response 
Teams to survey for obstructions to navigation in critical ports and 
waterways to allow relief supplies to be delivered and maritime 
commerce to resume. NOAA ships THOMAS JEFFERSON and NANCY FOSTER were 
diverted from planned missions to areas impacted by the hurricanes and 
helped collect data needed to reopen critical Gulf Coast ports and to 
assess impacts on Gulf Coast ports and fisheries. Immediately following 
the storms, NOAA contributed $4.3 million to the States to assist with 
environmental enforcement and search-and-rescue. Readings from NOAA's 
National Water Level Observation Network (NWLON) tide stations in the 
region provided emergency responders with real time storm tides, and 
are now invaluable data that can be used in planning the rebuilding of 
the coast.
    NOAA's wide-ranging capabilities continue to support the impacted 
areas with response to spills and maritime incidents. NOAA invested 
more than $3.7 million in 2005 grant funding to Gulf States to build, 
and in some cases re-build, their infrastructure and capacity to 
determine and deliver consistent and timely geodetic height 
information. Accurate land and water level heights are critical to 
determining effective highway evacuation routes, levee heights, storm 
surge modeling, flood plain mapping, sea level rise calculations, 
vessel under-keel and bridge clearance, subsidence monitoring, and 
restoration of coastal habitats. So, as you see, NOAA can and will 
continue to bring more to the table than just our forecasts. Your 
continued support of NOAA across the board is critical to our ability 
to add value to science for the American people.

                 2006 ATLANTIC HURRICANE SEASON OUTLOOK

    Everywhere we go we are asked about the forecast for this hurricane 
season. People want to know how many hurricanes there will be and if 
one will hit their area. The media also gives these seasonal forecasts 
high visibility, and this can have a very positive effect because it 
raises awareness about the threat from hurricanes and encourages 
businesses and people to prepare for what might happen.
    The official hurricane season started June 1st and goes through 
November 30th, with the average peak of hurricane activity occurring 
with the warmest water temperatures, from mid-August to late October. 
NOAA's prediction for the 2006 Atlantic hurricane season is for 13-16 
tropical storms, with eight to 10 becoming hurricanes, of which four to 
six could become major hurricanes. A major hurricane is a storm 
Category 3 or higher on the Saffir-Simpson hurricane scale, with winds 
greater than 110 miles per hour. Major hurricanes cause about 80 
percent of the damage sustained from tropical storms. We are predicting 
an 80 percent likelihood of an above average number of storms in the 
Atlantic Basin this season. This is the highest percentage we have ever 
issued. Our forecast for this season is based primarily on the 
continuing Multi-Decadal Signal in the global tropics--a climate 
pattern that has been in place since 1995. Since the mid-1990s, nine of 
the last 11 hurricane seasons have been above normal, with only two 
below normal seasons during the El Nino years of 1997 and 2002. This 
Multi-decadal signal will likely keep us in an active period for major 
hurricanes for another 10 to 20 years or more.
    Warmer ocean water temperatures in the tropical Atlantic Ocean and 
Caribbean combined with expected weaker easterly trade winds and a more 
favorable wind pattern in the mid-levels of the atmosphere are factors 
that collectively will favor storms in greater numbers and greater 
intensity. Warm water is the energy source for storms while favorable 
wind patterns limit the wind shear that can tear apart a storm's 
building cloud structure.
    NOAA is actively engaged in ongoing research to understand how 
climate variability and change may affect hurricane frequency and 
intensity. For example, climate effects from outside the Atlantic 
basin, such as El Nino/Southern Oscillation (ENSO), can impact 
hurricane formation in the Atlantic Basin. This year, however, NOAA 
scientists predict neutral ENSO conditions, which means neither El Nino 
conditions (which tend to suppress hurricane formation) nor La Nina 
conditions (which tend to favor hurricane formation) will be a factor 
in this year's hurricane season.
    Last year was a record-setting hurricane season, with 28 storms and 
15 hurricanes, of which seven were major hurricanes. We saw all too 
vividly the destruction and devastation individual hurricanes can 
cause. This is why it is important not to focus only on the total 
number of storms. The message is clear. We all need to be prepared.

                     MULTI-DECADAL CLIMATE PATTERNS

    As mentioned above, we have observed that steering patterns for 
major hurricane landfalls can sometimes persist over several years. 
During the 1940s many major hurricanes hit Florida. During the 1950s, 
the focus of land falling hurricane shifted to the U.S. East Coast. 
During the 1960s, the central and western Gulf Coast were slammed by 
several hurricanes.
    This pattern might lead one to assume that--given the recent major 
hurricanes like Charley, Ivan, Jeanne, Dennis, Katrina, Rita and Wilma 
in 2004 and 2005--Florida and the Gulf Coast are likely targets again 
this season. However, in each of these decades there were exceptions. 
For example, in the 1940s, while most storms hit Florida, two made 
landfall in the Gulf, and one made landfall in New England. In 
addition, in the 1930s, major land falling hurricanes were relatively 
well distributed along the U.S. coastline--hitting the U.S. coast from 
Texas to New England. Consequently, while it is possible to observe 
these trends and make generalizations based upon these observations--it 
is important to understand that in any given year a hurricane can 
impact any part of the U.S. coastline from Texas to Maine. Coastal 
communities along the Gulf and East Coasts (in addition to Hawaii and 
other interests in the Pacific and Caribbean) remain at risk for 
hurricanes, and the business community and the public must be prepared 
to respond if a situation arises.
    It only takes one hurricane over a given community to make for a 
bad year. In 1983, there was only one landfalling hurricane in the 
United States, but it was Category 3 Hurricane Alicia which hit the 
Galveston/Houston area. And in 1992, we only had one hurricane make 
landfall in the United States, but that was Category 5 Hurricane 
Andrew, which hit southern Miami-Dade County, Florida.
    No one can tell us reliably, months in advance when or where 
hurricanes are going to strike. The state of the science is simply not 
advanced enough at this time to do that. The bottom line is that all 
coastal states from Texas to Maine, Hawaii, and other U.S. interests in 
the Pacific and the Caribbean are vulnerable to the devastation brought 
by a hurricane. The message from NOAA is very consistent. We want every 
business, every family, every individual, and every community on or 
near the coast to have a hurricane preparedness plan and have it in 
place at the start of hurricane season.

             NOAA EFFORTS TO IMPROVE HURRICANE PREDICTIONS

    Improving hurricane forecasting is a top priority for the 
Administration. NOAA has made great strides in improving hurricane 
track forecasting; our 5-day forecasts are now as accurate as 3-day 
forecasts were 15 years ago. NOAA spends over $300 million per year to 
track and forecast hurricanes. In fiscal year 2007, we are requesting 
$109 million in increases for hurricane-related investments.
    NOAA is focused on improving hurricane track, intensity, storm 
surge, and rainfall predictions. The accuracy of NOAA's hurricane 
forecasts is closely tied to improvements in computer-based numerical 
weather prediction models. This year NOAA implemented advances in its 
hurricane forecasting model that are expected to yield improved track 
and intensity guidance for our forecasters. The Geophysical Fluid 
Dynamics Laboratory in NOAA's Office of Oceanic and Atmospheric 
Research (OAR) developed this hurricane model and incorporated it into 
operations at NWS's National Center for Environmental Prediction 
(NCEP).
    NOAA's Central Computer System upgrade in fiscal year 2007 will 
increase computational speed, memory, and storage capabilities. This 
allows more sophisticated numerical models to run and make use of 
available data, including data from NOAA's polar orbiting and 
geostationary satellites. We expect significant improvements in 
intensity, precipitation and wind distribution forecasting from the 
next generation operational modeling system.
    Predicting hurricane intensity remains one of our most difficult 
forecast challenges. We are all aware of the improvements made in 
predicting hurricane track forecasts and this has been where NOAA and 
the research community have, in the past, placed their emphasis. Within 
the past few years, the emphasis on improving intensity prediction has 
increased. Leading the way, in fiscal year 2007 NOAA plans to introduce 
a new hurricane modeling system developed by NCEP's Environmental 
Modeling Center called the Hurricane Weather Research and Forecasting 
model (HWRF).
    Congress supported this effort in the fiscal year 2006 Hurricane 
Supplemental Funding, and HWRF implementation and development is 
included in the fiscal year 2007 President's Budget request. The HWRF 
will be a coupled atmosphere-ocean prediction system that will take 
advantage of the latest atmosphere and ocean observations, the most 
advanced methods to analyze those data, and state of the art physics to 
produce our Nation's next generation hurricane forecast system. Once 
the HWRF becomes operational, our goal is to improve hurricane 
intensity predictions by about 30 percent by 2015.
    Hurricane Katrina is a grim reminder that the greatest potential 
for economic destruction and large loss of life is from the storm surge 
near the coast. Storm surge is also very difficult to predict because 
it depends on the hurricane track and wind field, but it also is 
impacted by bathymetry and natural and man-made barriers, such as dunes 
and roadways. A slight difference in track or wind field can mean a 
huge difference in where the highest storm surge impacts the coast.
    We believe the NOAA Storm Surge Model, known as SLOSH (Sea, Lake 
and Overland, Surge from Hurricanes) provided excellent guidance during 
last year's hurricanes. We realize many other storm surge models exist, 
and NOAA recently formed an assessment team to re-examine our users' 
requirements for real-time storm surge information and products, to 
direct storm surge modeling within NOAA, and to plan for future 
enhancement of, or the replacement of, the SLOSH model.
    NOAA's Atlantic Oceanographic and Meteorological Laboratory (AOML) 
Hurricane Research Division (HRD) also conducts research to better 
understand internal storm dynamics and interactions between a hurricane 
and the surrounding atmosphere and ocean. AOML's scientists provide 
data and information to operational NOAA forecasters for use in models. 
Through a greater understanding of physical processes and advanced 
hurricane modeling, in collaboration with federal partners, academic 
researchers, and commercial enterprises, NOAA continually improves 
models for predicting hurricane intensity and track.
    To help guide future research efforts, NOAA's Science Advisory 
Board commissioned a Hurricane Intensity Research Working Group to 
provide recommendations to the agency on the direction of hurricane 
intensity research. The Working Group expects to transmit its final 
report to the Science Advisory Board in July 2006. The National Science 
Board of the National Science Foundation has also convened a working 
group of external advisors to review hurricane science and engineering. 
The final report from this group is scheduled to be submitted to the 
National Science Board in August 2006. Recommendations from these 
reports will be carefully considered by NOAA as we plan our efforts to 
improve our operations and predictions.

                      AIRCRAFT RECONNAISSANCE DATA

    NOAA aircraft, the W-P3 Orions and the Gulf Stream IV, provide 
essential observations critical to the National Hurricane Center 
forecasters and supplement the U.S. Air Force Reserve Command's 53rd 
Weather Reconnaissance Squadron flights. The $14.2 million NOAA 
received in fiscal year 2006 supplemental appropriations to improve 
future aircraft service will add an additional W-P3 next year, and 
upgrade the radar and instrumentation on all of NOAA's aircraft.
    A specialized instrument flown on the W-P3s, the Stepped Frequency 
Microwave Radiometer (SFMR), was developed by NOAA researchers at AOML 
and provides essential data on hurricane structure, surface wind and 
rain rate to hurricane forecasters. The SFMR allows forecasters and 
researchers to see fluctuations in hurricane intensity not observed 
before. The Military Construction Appropriations and Emergency 
Hurricane Supplemental Appropriations Act, 2005 (Public Law 108-324) 
provided $10.5 million to the Air Force to outfit the complete fleet of 
Hurricane Hunters with this instrument. We hope the first of these 
additional units will be available toward the end of the 2006 Hurricane 
Season.

                  NOAA ENCOURAGES EVERYONE TO PREPARE

    We work year-round with federal, state, and local emergency 
managers; we educate them about weather effects from hurricanes and 
they educate us about response issues and their challenges. It is a 
constant learning process and the key is working together to ensure the 
public takes appropriate action. Most preparedness activity and 
outreach takes place outside hurricane season. Last month, as part of 
our ongoing mission to enhance economic security and national safety, 
NOAA led a Hurricane Awareness Tour along the Gulf Coast. The tour 
helped raise awareness about the potential effects from a hurricane 
landfall. The National Weather Service forecast offices arranged the 
tour events with the Federal Emergency Management Agency, local 
governments, emergency managers, schools, the public and the media in a 
team effort to increase hurricane awareness and encourage preparedness 
in this vulnerable area of the nation. During land falling storms, it 
is essential for the emergency management community and the weather 
community to have one message for the public so businesses and people 
can take appropriate action. Nowhere is this more critical than in 
areas most vulnerable to the impact of a hurricane.
    While NOAA will continue to do its best to provide as much warning 
as possible, it is my hope that each business, each family, and each 
community, on or near the coast, will develop and be able to execute a 
hurricane preparedness plan. We must all be ready to protect our lives 
and property from the power of hurricanes.

                               CONCLUSION

    The truth is, right now, no one knows exactly what areas of the 
coast, or which states or locations within those states, if any, a 
hurricane will hit in 2006. Could it be the Gulf Coast again? Maybe. 
How about New England or New York City? That's possible, but, right now 
we just don't know. We also need to remember a hurricane is not just a 
coastal event. The strong winds, heavy rains and tornadoes from 
weakening tropical systems can spread well inland and cause tremendous 
damage.
    The chart below shows the tracks of tropical storms and hurricanes 
since 1851. I think most people can look at this graphic and understand 
that the United States is vulnerable to hurricanes. The bottom line is 
that all coastal states from Texas to Maine, Hawaii, and other U.S. 
interests in the Pacific and the Caribbean are at risk. Everyone along 
the coast, including inland communities, must be prepared to protect 
their lives and property in the event of a hurricane. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Biographical Sketch of Conrad C. Lautenbacher, Jr.

    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA Administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55 member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was president and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.
                                 ______
                                 
             Biographical Sketch of Dr. Louis W. Uccellini

    Dr. Louis W. Uccellini is currently the Director of the National 
Weather Service, National Centers for Environmental Prediction (NCEP). 
In his position, he is responsible for directing and planning the 
science, technology and operations related to NCEP's Central Operations 
and Environmental Modeling Center as well as seven national centers 
that forecast specific weather phenomena. These centers include the 
National Hurricane Center (Miami, FL), Storm Prediction Center (Norman, 
OK), Space Environment Center (Boulder, CO), Ocean Prediction Center, 
Hydrometeorological Prediction Centers, Climate Prediction Center and 
Aviation Weather Center (Kansas City, MO).
    Prior, Dr. Uccellini was the Director of the NWS Office of 
Meteorology from 1994 to 1999; Chief of the NWS Meteorological 
Operations Division from 1989 to 1994; and Section Head for the 
Mesoscale Analysis and Modeling Section in the Goddard Space Flight 
Center's Laboratory for Atmospheres from 1978 to 1989.
    He received his Ph.D. (1977), Masters (1972) and Bachelor of 
Science (1971), degrees from the University of Wisconsin-Madison. Dr. 
Uccellini has published more than 55 journal articles and chapters in 
books on subjects including analysis of severe weather outbreaks, 
snowstorms, gravity waves, jet streaks, cyclones and the use of 
satellite data in analysis and modeling applications. He is the co-
author of a widely acclaimed book entitled Snowstorms Along the 
Northeastern Coast of the United States: 1955 to 1985, which was 
published by the American Meteorological Society in 1990; and authored 
a chapter in the 1999 AMS publication The Life Cycles of Extratropical 
Cyclones that provides a historical review of advances in forecasting 
extratropical cyclones at NCEP. Also in the Fall of 2004, a new two-
volume book: Northeast Snowstorms, co-authored by Dr. Uccellini, was 
published by the American Meteorological Society.
    Dr. Uccellini has received numerous awards in recognition of his 
research and operational achievements including the Maryland Academy of 
Sciences Distinguished Young Scientist Award (1981), the NASA Medal for 
Exceptional Scientific Achievement (1985), the American Meteorological 
Society's prestigious Clarence Leroy Meisinger Award (1985), and the 
National Weather Association's Research Achievement Awards for 
Significant Contributions to Operational Meteorology (1996). He was 
elected as a Fellow to the AMS in 1987, and received the U.S. 
Presidential Meritorious Executive Rank Award in 2001.

    Senator Shelby. Dr. Uccellini. Is that right?
    Admiral Lautenbacher. No, he's just asking you if that's 
the right pronunciation.
    Dr. Uccellini. Yes, it is. Dr. Uccellini.
    Senator Shelby. Uccellini.
    Dr. Uccellini. Right.
    Senator Shelby. Uccellini. I thought the Senator from 
Maryland would certainly get it right. Go ahead.

                    STATEMENT OF DR. LOUIS UCCELLINI

    Dr. Uccellini. Well, most of my comments would be included 
in what you've just heard.
    I'll just say, with respect to the National Centers for 
Environmental Prediction, that the National Hurricane Center is 
one of seven service centers. I like to tell my family that, 
with Max Mayfield, when they see him on TV--they ask who he 
works for, and I tell them that we all work for Max, although 
on paper he reports to me.
    The National Centers provide the model, the IT 
infrastructure, to ensure that the National Hurricane Center 
works on time, every time. And, in that light, we also provide 
the critical backup to the National Hurricane Center. This was 
an issue last year, as we dealt with Hurricane Wilma, that 
crossed right over the Center. So, it is an issue we take very 
seriously.
    With respect to the past year and lessons learned, I want 
to assure you that all the model upgrades that have been 
planned, and which were accelerated through supplemental 
appropriations, have been implemented in time for the hurricane 
season, and that we've increased the number of forecasters in 
the National Hurricane Center. And we thank you for your 
support in that regard.
    We've implemented new techniques for hurricane track and 
intensity forecasts, and have the workstation software online 
to bring those to the fingertips of the forecasters at the 
National Hurricane Center. And, last, but not least, we have 
coordinated the numerous outreach activities, and we feel we're 
ready for this season.

                  PREDICTION OF FUTURE STORM ACTIVITY

    Senator Shelby. Last year was the strongest hurricane 
season on record, with 15 hurricanes, 4 of which were category 
5, and 4 making landfall. Doctor, given Admiral Lautenbacher's 
statement regarding the forecast for 2006, do you expect a 
continued increase in storm activity? And, if so, for how many 
years? I know it's a prediction.
    Dr. Uccellini. Well, the numbers that we're predicting have 
been brought forward, and they are less than what we had last 
year.
    Senator Shelby. Less?
    Dr. Uccellini. They are less than what we actually had last 
year. But the prediction we made in May of last year, and 
updated in August, was also less than the actual number of 
storms that occurred in 2005. And one of the important factors 
that the folks in the Climate Prediction Center, who also work 
for me, said that the numbers that we're predicting right now 
are actually larger than the numbers we brought forward in May 
of last year. So, the bottom line here is that we are expecting 
an active season. The conditions are ripe for an active season. 
Whether we approach the record season we had last year is 
something that our forecasters are not willing to put forward 
at this point.
    We will update this forecast in August, as we are in the 
middle of the season.
    Senator Shelby. Last year, your predictions were, I 
thought, so accurate, considering it is a prediction. I know 
you can't forecast everything in the future, but do you believe 
you have the tools to improve on your forecast and so forth?
    Dr. Uccellini. Well, the forecasting of any weather event 
is a very difficult scientific problem.
    Senator Shelby. It is.
    Dr. Uccellini. And, clearly, the more observations we have, 
the better we make our models, which are based on mathematical 
and physical principles, the larger the computers that we can 
bring to solving those problems on an on-time basis. This is 
something we have to do in real time, so we strive for those 
improvements. So, yes, we do a good job. We have the 
verifications to show that our forecasts are improving, but 
there are a lot of issues still facing us that we know we have 
to deal with, from a purely scientific point of view and also a 
technological point of view, to continue to improve those 
forecasts.

                        STAFFING FOR FORECASTERS

    Senator Shelby. Admiral, what about the staffing situation 
at NOAA, for forecasters throughout the National Weather 
Service? Is it adequate? Do you need more? Senator Mikulski and 
I want to make sure you have the adequate resources, because 
the way your agency performed is exemplary.
    Admiral Lautenbacher. Thank you. And I appreciate that. We 
have been very fortunate in being able to increase, because of 
your action, the number of forecasters in the Hurricane Center 
by four, whom we promoted from within the organization. We are 
in the process of making sure that all of the backfills for 
those people have been promoted, who are fully staffed--that 
the forecasting group is fully staffed for hurricanes this 
season. We continue to ask for support on the pay raises, 
because there has been some leveling off of our ability to 
provide backfill for pay raises when they are absorbed in the 
general budget. And so, the administration did ask for 
increases in pay raises for our forecasters this year, and I 
commend that, again, in the interest of the subcommittee. I 
think it's very important for our morale.
    Senator Shelby. You've got to keep the good people.
    Admiral Lautenbacher. Yes, sir.

                     HURRICANE SEASON PREPAREDNESS

    Senator Shelby. I understand that NOAA recently 
participated in some of the gulf States' emergency management 
workshops as an essential Federal partner in the hurricane 
preparedness process. What's your opinion on how the gulf 
States are preparing for the coming hurricane season, 
particularly with respect to the lessons learned from last 
year? Which one of y'all want to take that?
    Admiral Lautenbacher. Well, maybe we can both----
    Senator Shelby. Both, okay.
    Admiral Lautenbacher [continuing]. Both contribute. I have 
been down to the gulf coast personally to tour our facilities 
and talk to people, and I think there is new recognition, and 
very serious concern, about preparing, this year. And I've 
talked to several of the State directors. I know that Max does 
that all the time. So I don't want to be complacent. I want to 
continue to get people serious about it, because I know there 
are always a few that don't get the word. But the fact is, I 
think, that awareness is much higher, and we're preparing to 
help them as much as we can this year.
    Senator Shelby. Where are you, as far as helping the people 
in the gulf coast, and everywhere, to develop construction 
standards for hurricane-resistant structures and shelters? All 
of that's important.
    Admiral Lautenbacher. It is very important, and we have a 
joint committee with NIST, the National Institute of Standards 
and Technology, which is part of the Department of Commerce--to 
take our modeling and look at their structural models--because 
they're the ones that have to determine what these standards 
are. So, the issue here is to go from large-scale models that 
tell what's going on in an area for winds and surge, and turn 
it into something that can be done locally and looked at by the 
structural engineers at NIST. And we are very dedicated to 
working on that problem with them.
    Senator Shelby. Doctor, do you have anything to add to 
that?
    Dr. Uccellini. Well, I was just going to add, on the 
outreach at the State and local levels, that the National 
Weather Service, Southern Region, headed by Bill Proenza, and 
the Eastern Region, headed by Dean Gulezian, have been very 
active in working with the State and local emergency management 
and other responders, first responders, with respect to 
reacting to the hurricane warnings and warnings that are 
associated with them. So, the National Weather Service has been 
active in our outreach--they do this every year, but this year, 
particularly, has been a focus. And I know that the staff in 
these forecast offices and in the regional offices have been 
right there all off-season to deal with these issues and making 
sure that the communities are ready.
    Senator Shelby. I understand that NOAA works with FEMA, the 
U.S. Geological Survey, the U.S. Corps of Engineers, and other 
Federal and State agencies, to assure a coordinated effort on 
preparedness for hurricanes and coastal flooding. Do you feel 
there has been significant coordination between all State and 
Federal agencies as we enter into this new hurricane season?
    Admiral.
    Admiral Lautenbacher. I do. I have seen a lot more 
coordination, starting with the White House and working down 
into the local region. Response plans have been developed. The 
season has actually been sort of war-gamed at the highest 
level, at the Cabinet level, in which we've been involved. And 
we have participated, as Dr. Uccellini mentioned, at the local 
level, as well as at the Federal level. So, there has been, in 
my view, an enhanced degree of coordination and cooperation 
this year. I, personally, have talked to the new FEMA Director, 
and we've set up new coordinating bodies to work together to 
look at the response that comes after a hurricane. And I'm 
feeling that we're moving in the right direction.

                           TECHNICAL SUPPORT

    Senator Shelby. What technical support or tools does NOAA 
provide during the rest of the year, to help the State and 
local governments undertake hazard mitigation, actions, and 
prepare communities?
    Admiral Lautenbacher. It's ongoing. It's ongoing all year. 
I know if Max Mayfield were here, he would tell you about the 
activities that he takes outside of the hurricane season. As 
he's always said, the preparedness for this hurricane season 
takes place in the off season. He spends a great deal of time 
on the road, as many of our folks do, talking to, and making 
personal appearances. It is not just the hurricane awareness 
tour that I've talked to you about. So, there's a great deal of 
outreach that goes on continuously, year round, from our folks. 
Now, we have the StormReady Program, which is exceedingly 
important. Every weather forecast office in our Nation is 
available. They have a warning coordinator/meteorologist, who 
talks continuously to the county and city managers in that 
area, and who provides checksheets and ways to certify that 
county and city that they are ready and prepared for any 
emergency event, and that doubles--goes double along our 
coasts.
    Senator Shelby. I also understand that NOAA has begun 
work--and probably has, in the past--in communities to create 
and improve their coastal inundation maps. How is this effort 
coordinated with updating the FEMA floodplain maps? And are the 
NOAA maps being created using the latest technologies, 
topography, and data and so forth? This is very important in 
another committee, the Banking Committee. You know we are 
working on the Flood Insurance Program there. Mapping is so 
important to all of it, is it not?
    Admiral Lautenbacher. It's critical. And we work very 
closely with the Flood Hazard Mapping Program. We provide the 
elevation data, and we provide some of the charting of the 
coasts, and our models help determine the floodplain areas. 
That information all goes to FEMA and to the cognizant parts of 
State and local agencies.
    Senator Shelby. So, that'll ultimately wind up in the 
zoning and building codes, hopefully?
    Admiral Lautenbacher. It should.
    Senator Shelby. In the local communities?
    Admiral Lautenbacher. It should wind up in the zoning and 
the building codes. Again, much of the zoning and building 
codes are local----
    Senator Shelby. We know.
    Admiral Lautenbacher [continuing]. Are local issues, and we 
work, to our utmost, to ensure the information is available to 
all local/regional emergency managers.
    Senator Shelby. Do you know if any of the coastal 
communities--and I'll speak from the gulf perspective, and let 
Senator Mikulski do the other, from the East have they adjusted 
their land use as a result of any of your maps?
    Admiral Lautenbacher. I am not aware of that. I'm really 
not informed enough to answer the question.
    Senator Shelby. But, ultimately, they----
    Admiral Lautenbacher [continuing]. Take it back----
    Senator Shelby [continuing]. They should look at 
everything, from----
    Admiral Lautenbacher. They should.
    Senator Shelby [continuing]. From flood and a propensity of 
hurricanes, everything, should they not?
    Admiral Lautenbacher. Absolutely.

                           EVACUATION ROUTES

    Senator Shelby. What about evacuation routes? Have you 
worked with FEMA, anybody, on that, in the States?
    Admiral Lautenbacher. We do work with evacuation routes 
with the emergency managers. It's particularly important in the 
tsunami work that we've been doing, where there is more 
vulnerability on the west coast, but it's something that every 
coast should be dealing with. Evacuation routes are part of the 
certification for StormReady, so we work with the emergency 
managers in each area to ensure that they have looked at the 
emergency routes. Our folks are not necessarily the experts, 
but they can provide the information on what makes sense.
    Senator Shelby. I have some other questions, but I'm going 
to now recognize Senator Mikulski for any questions.

             NATIONAL CENTERS FOR ENVIRONMENTAL PREDICTION

    Senator Mikulski. Thank you very much, Mr. Chairman. Many 
of your questions are also mine.
    But I'd like to turn to Dr. Uccellini and ask this. We hear 
about the National Centers for Environmental Prediction. And 
what I'd like to share with my colleagues, this is not only--
the Center is not only limited to hurricane prediction. What 
else goes on there?
    Dr. Uccellini. Well, we have seven service centers that 
involve basically everything from the Sun to the sea. We have 
the Space Environment Center in Boulder, Colorado. We have the 
Storm Prediction Center and the Tornado Watch Program in 
Norman, Oklahoma; the Aviation Weather Center, in Kansas City. 
We have the Tropical Prediction and the National Hurricane 
Center in Miami. And then, in Camp Springs, Maryland, we have 
the Climate Prediction Center; the Hydrometeorological 
Prediction Center, which does the quantitative precipitation 
forecasts that are used for the inland flooding problem; and 
then, the Ocean Prediction Center, which is a critical part of 
our forecast infrastructure. Many of these storms, obviously, 
are over sea, and the Nation's commerce is really dependent 
upon the ships at sea, so the Ocean Prediction Center is 
involved in differentiating your normal storms from your gales 
and your major storms. So, there's this whole range of 
activities that are then supported by the modeling and the 
infrastructure of getting this global data from the global 
observing system to the models on time, getting the information 
out of the models, getting the information from all of these 
forecast centers out to not only the general public, but the 
private sector, our local forecast offices, et cetera. So, 
that's the whole range of what we do.
    Senator Mikulski. So, first of all, NOAA isn't like a 
Government agency talking to another Government agency about 
hurricanes; that essentially, for our colleagues in the Senate, 
what the National Centers for Environmental Prediction does is, 
serve the Nation, serve us coastal Senators that are hurricane 
impacted, serve the western Senators in helping to predict the 
factors that could be creating wild--a high level of 
possibility for wildfires, the tornado predictions, working 
with the private sector, particularly with aviation 
prediction--when's it safe to take off? What are the weather 
conditions, and so on? Is this--so that NOAA really serves the 
Nation in any kind of weather impact, from school closings to 
airport closings. Am I----
    Dr. Uccellini. That's correct. One of the partners that I 
haven't mentioned in this is the media, for example. And we 
have strong partnerships with them across the whole line. And 
so, they access our products directly. So, what I'd like to say 
is, basically, from the National Centers for Environmental 
Prediction's point of view, all the forecasts you see here and 
read about start with us. They don't end with us, but they 
start with us. We provide that critical information that allows 
these folks to get that information out.
    Senator Mikulski. But your customer is not only other 
Government agencies, it is, number one, other Government 
agencies for readiness, response, repair; the second is also 
the private sector, like in the field of aviation, cargo 
shipping, lost cargo, a Valdez, anything that could have come 
from weather would be impacted; and then also ordinary people, 
themselves, who have to know what to do.
    Dr. Uccellini. Right.
    Senator Mikulski. And the media is your best friend for 
broad distribution. Is that right?
    Dr. Uccellini. That's correct.

              INFORMATION PROCESSING AND PREDICTION CYCLE

    Senator Mikulski. Now, what--and then, you do this by 
observing, through satellites and land sensors and ships at 
sea, et cetera. Then that information comes to the National 
Centers for Environmental Prediction. Then it's processed, and 
then sent down, in the case of hurricanes, to the Hurricane 
Center, who then value-adds. Is that the way it works? 
Observation, process, down to the appropriate center, where 
even more is added to it, and then back out to the appropriate 
public/private and ordinary citizen----
    Dr. Uccellini. That----
    Senator Mikulski [continuing]. Is that the way it works?
    Dr. Uccellini. That's the way it works. And it works on a 
cycle of four times per day. Every 6 hours, we repeat that 
cycle.
    Senator Mikulski. Four times a day----
    Dr. Uccellini. Right.
    Senator Mikulski [continuing]. Every 6 hours. So, you're 
operating 24/7.
    Dr. Uccellini. Right.
    Senator Mikulski. It's just not like you're sitting 
around--and I don't--please, don't--and then, when you think 
something might happen, and you all come alive.
    Dr. Uccellini. We have to be ready all the time. We're 
predicting all the time. We have to be able to tell emergency 
managers, or anybody, when it's not going to storm, just as 
much as when it is going to. And, we like to point out, for the 
United States, which, as a country, has more severe weather 
than any other country in the world, that there's always 
something happening in this country that our forecasters have 
to deal with.
    Senator Mikulski. Twenty-four/seven, six times a day, all 
these predictions----
    Dr. Uccellini. Four times a day. We're on a 6-hour cycle--
--
    Senator Mikulski. Yes, I'm sorry. Got it.
    Dr. Uccellini [continuing]. Four times a day.

                       HURRICANE PREDICTION MODEL

    Senator Mikulski. Okay, now, let's go to this new hurricane 
prediction model. After Katrina, I think we knew you were 
working on a model, and this subcommittee, under Senator 
Shelby's leadership, provided increased funding to accelerate 
the model. Could you tell us where you are in the new hurricane 
model and what will the public get for this new model?
    Dr. Uccellini. Right. We're in the process now of actually 
testing that model on individual cases. And when I say 
``testing,'' what's new about the model is not just the physics 
that we bring in from an atmospheric point of view, it's the 
coupling with the ocean on a real-time basis that is actually 
being tested. And our plans originally were to implement that 
and replace the existing model in the 2008-2009 timeframe. And 
what our plans call for now is to get that into operations by 
2007. So, we were looking at a 2-year acceleration----
    Senator Mikulski. But what will it do?
    Dr. Uccellini. What it will do is----
    Senator Mikulski. What will it do--what will the new model 
do that is different than the old model?
    Dr. Uccellini. Okay. Well, first of all, we expect more 
accurate forecasts for the track and, more importantly, for the 
intensity of these storms. I think everybody knows we've made 
significant improvements in track forecasts over the past 10 
years, but the intensity forecast has proven to be a 
particularly thorny issue, from a science point of view. And, 
in fact, we've had a working group now, working with the NOAA 
Science Advisory Board, to bring forth recommendations, and 
they're all focusing on increased resolution of the models, 
which this will have. So, we expect that, with the improvements 
we're working on, and working with the larger scientific 
community, that we will be addressing this intensity issue. 
Many of these storms intensify very rapidly over a 12-hour 
period. We saw that with Charley off the coast of Florida, we 
saw that with other storms in the Gulf of Mexico. We saw that 
Wilma went to a category 5 in less than 24 hours. We have 
trouble forecasting those intensity changes. And then, of 
course, the de-intensification as it approaches the coastline 
is also a critical issue. And we expect this new model to give 
us a better handle on the intensity changes.
    Senator Mikulski. I want to come back to intensity and 
surge, but just a question. Won't the new model give you a more 
accurate prediction as to where a hurricane will come down? I 
mean, the private sector tells me that, for every mile of 
evacuation, colleagues, it cost $1 million. So, when you hear, 
``Oh, they're leaving Key West,'' or, ``They're leaving Ocean 
City,'' every mile of evacuation costs about $1 million, in 
terms of closing businesses, disruption, overtime for State 
troopers, et cetera. So, if we know whether--if it's going to 
hit Savannah or Charleston, you know, Norfolk or Maryland, I 
mean----
    Dr. Uccellini. Yes, we do expect better forecasts for the 
track, as well. We have been making improvements on track, so 
the delta in the track forecasts won't be as large as, we hope, 
for the delta in the intensity forecasts. But, let me add that 
one of the issues with forecasting these storms, as you 
approach landfall from 5 days in advance to 4 days in advance, 
to 3, to 2, to 1, is, you want a consistent forecast. You don't 
want the models to be moving all over the place as a hurricane 
is approaching land. And another issue that we expect to be 
able to address with these high-accuracy models, is that 
they'll give us more consistent forecasts on a run-to-run 
basis.

                            SURGE PREDICTION

    Senator Mikulski. Well, also, will this give us greater 
prediction, in terms of surge? You know, when Isabel hit 
Maryland, I went to bed thinking we had dodged the bullet of 
the hurricane, only to wake up to find out we were kayaking in 
Fells Point, and, you know, I was commuting by Zodiac that day. 
Not literally, but----
    Dr. Uccellini. Well, it was the Isabel storm that brought 
great attention to the storm surge models and the improvements 
that needed to be made there. And we are addressing current 
surge models, and improving those, as well. But, with this new 
modeling system, what we are approaching now is the ability to 
fully couple the atmospheric model with the ocean and coastal 
model.
    Senator Mikulski. Is surge in this new model?
    Dr. Uccellini. It will be in the new model in the extended 
timeframes. We're not confident yet that it will be in the 
model for 2007, but that is an issue that we're addressing. And 
when we feel like we can improve upon the existing surge model, 
then it will go operational.
    Senator Mikulski. My time is running out, so I'm going to 
ask--I understand, from the employees, you need about--you 
know, in Maryland, you can't go to a supermarket without 
talking to five Federal employees, all working on projects, 
writing the regs, and so on. They tell me that, really, the 
weather--to do the new model, you need about another million 
dollars for 2007 to do about six more people to complete the 
job. Is that right?
    Dr. Uccellini. With your support, we're building up the 
modeling group to do the hurricane improvements. And we have 
plans for sustaining that. In 2007, we'll have to look within 
NOAA to do that, but, in 2008, we are, you know, approaching 
that budget cycle and looking to fully support----
    Senator Mikulski. So, what's----
    Dr. Uccellini [continuing]. The model----
    Senator Mikulski [continuing]. The answer to the question, 
though, Doctor? Or are you unable to answer it because of----
    Admiral Lautenbacher. Let me----
    Senator Mikulski [continuing]. OMB rules?
    Admiral Lautenbacher. We're----
    Senator Mikulski. All I need to know is, Do you need 
another million dollars for six people to complete--to really 
work to complete----
    Admiral Lautenbacher. We're going to make sure he has the 
six people to start this when it needs to be started, and we're 
going to ask for the budget resources on the next cycle to 
increase this effort.

                         HURRICANE LIAISON TEAM

    Senator Mikulski. Okay. This is my last question, Mr. 
Chairman.
    I understand that, at National Hurricane Center, there is 
something called a ``hurricane liaison team,'' and that that 
liaison team has appropriate government agencies, particularly 
FEMA. Could you tell us what the hurricane liaison team is at 
the Hurricane Center, or in conjunction with, and was it 
operation during Katrina? And what did it do?
    Dr. Uccellini. Yeah, the----
    Senator Mikulski. And how will it be different next time?
    Dr. Uccellini. Right. The hurricane liaison team was 
actually formed in the 1990s, after Andrew. And part of this 
effort to get one voice out to the emergency management 
community. It was recognized back then that we needed to do 
that with FEMA and with the State and local emergency 
management teams.
    Senator Mikulski. This was out of Andrew. Am I right?
    Dr. Uccellini. It was part of the feedback we got from the 
Andrew storm, that's correct.
    Now, the liaison team contains a FEMA work area at the 
Hurricane Center. So, they have a work area. It's right off of 
the forecast floor. They have all the technical abilities in 
that work area to access the forecasts, even as they're being 
made. The briefings that are done for the larger FEMA 
organization--and they include State and local emergency 
management officials in those briefings--the weather portion of 
those briefings are actually orchestrated, led out of that 
liaison team in Miami. They lead the entire briefing, and they 
include other components of the Weather Service, including the 
Hydromet Prediction Center, at Camp Springs, that talks about 
the rainfall prediction, and the River Forecast Centers which 
predict floods. So, all of that is done. It was working very 
well during the last hurricane season. And I actually attend 
those briefings, although I don't participate. I have two 
Center directors----
    Senator Mikulski. So, during----
    Dr. Uccellini [continuing]. That do.
    Senator Mikulski [continuing]. Katrina, when we all--all of 
America watched Katrina coming. I know I certainly was. I 
happened to be on the Eastern Shore at the time and saw these 
predictions. So, there was a hurricane liaison team. They were 
working right alongside with the predictors, the science----
    Dr. Uccellini. Right.
    Senator Mikulski [continuing]. Community. And then, their 
job was to notify everybody to be ready, to stand sentry. And 
they were getting this most accurate, realtime, uptime 
predictions.
    Dr. Uccellini. That's correct. And at 12 o'clock every day 
and at 5 p.m. there is a briefing that's provided, and the 
whole briefing goes out to all the emergency managers in the 
affected States.
    Senator Mikulski. Well, are we----
    Dr. Uccellini. And that's all----
    Senator Mikulski [continuing]. Saying, then----
    Dr. Uccellini. And that's all coordinated by FEMA through 
that liaison team.
    Senator Mikulski. Are we saying, then, that all of these 
States were appropriately notified at the velocity that was 
coming their way, in addition to watching it on TV?
    Dr. Uccellini. The emergency management teams in each one 
of those States participated in those calls at 12 and 5 p.m. 
every day.
    Senator Mikulski. Well, Mr. Chairman, I think we need to 
talk about it. Something broke down.
    So, in other words, we want this hurricane liaison team.
    Senator Shelby. Absolutely.
    Senator Mikulski. But, if they, then, knew it, then what 
happened? And--do you have any thoughts or----
    Dr. Uccellini. I'll just say that I was part of the Weather 
Service headquarters at the time the hurricane liaison team was 
spun up. We all recognized that this was the way to conduct 
business with one of our primary users of our information. And 
I consider that a very important aspect of the work that we do 
as part of the U.S. Government.
    Senator Mikulski. Oh, it certainly is.
    Well, my time is really up. And we want to thank you, 
again, for the wonderful work that you do, because it's really 
dedication. If you don't have the right people, the right 
technology and models won't work. And, also, we want to thank 
you for the consequence management, about the aerial images 
afterward, this--the consequences on coastal impact, the 
materials--I mean, what happened out in the gulf, with oil----
    Dr. Uccellini. That's right.
    Senator Mikulski [continuing]. And all of that, our impact 
on fisheries, which we haven't even talked--your satellites 
could work with us. So, it's a--it was a great job, and we want 
to thank you for it, and hope for the best for this year. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.

                          TSUNAMI PREPAREDNESS

    Senator Murray. Thank you, Mr. Chairman. And thank you, to 
both of you, for having this really important, informative 
hearing.
    I wanted to just take an opportunity, while you were in 
front of this subcommittee, to ask a question on a related 
issue, on tsunami preparedness. You mentioned a minute ago, my 
coast does worry about that. And after the 2004 Indian Ocean 
tsunami, it really raised a lot of concerns about the 
vulnerability of our detection and warning systems so we would 
not have a similar disaster on any of our coasts. Congress 
responded well. We appropriated $17.24 million in a 
supplemental funding bill for NOAA to expand and improve its 
tsunami detection capabilities and a number of other things. 
And in 2006 we appropriated almost $10 million for tsunami-
related activities. And this year the President's asked for 
$21.66 million. So, we're responding to that. But I was really 
concerned, because the Government Accountability Office (GAO) 
issued a report on these--U.S. tsunami preparedness just this 
last Monday that raised some concerns about both the 
effectiveness of the existing Federal warning system and the 
progress that's being made to increase preparedness in a lot of 
our high-hazard areas. And, importantly, the report noted that 
NOAA has yet to adopt a comprehensive strategic plan that 
establishes risk-based priorities to guide the expansion of the 
warning program. Without that kind of plan, GAO said that the 
ongoing expansion could result in a diversion of critical funds 
away from locations like the Pacific Coast, where the tsunami 
hazard is well documented, to areas with little or no risk.
    Admiral, if you could just talk for a minute about what 
your response is to the GAO report and recommendations.
    Admiral Lautenbacher. We are reviewing the GAO report. We 
certainly believe in risk-based management. Risk-based 
management is extremely important. One of the elements of the 
program is to provide the kinds of flood information and first 
of all, the coastal bathymetry and topography, so we can tell 
what the dangerous areas are, and to get enough effort going to 
be able to map all of these areas. This is the same issue we 
have with storm surge in the gulf from hurricanes. So, the 
issue is trying to get the mapping, the risk areas, set up and 
done in a reasonable way, because we can't do them all at once. 
And we certainly agree that we need to look at it on a risk-
based management perspective, because it's not something that 
can be done instantaneously for everyone in all areas.

                       DEEPWATER DETECTION BUOYS

    Senator Murray. Well, what is the timeline for development 
of the--more deepwater detection buoys off the Pacific Coast?
    Admiral Lautenbacher. First of all, the buoys are 
developed, and they're being delivered. We have 10 buoys in the 
Pacific that have been put in, and we have put 5 in the 
Atlantic and Caribbean. This year, we'll reach what we call 
IOC, or initial operating capability, of deepwater buoys for 
both the Pacific and the Atlantic. Next year, we will be able 
to complete the bulk of the 39 that we've committed to put in, 
so the program is running as expected.
    Senator Murray. Have all the existing buoys been functional 
over the last year?
    Admiral Lautenbacher. We have had casualties to a few of 
our buoys, and we've replaced them. We still have one that's 
not functional off the Aleutians, and that will be replaced as 
soon as the weather cooperates. There is a very narrow weather 
margin.
    Senator Murray. Right.
    Admiral Lautenbacher. What we're going to do in the 
Aleutians is put two buoys in each of those stations, to try to 
provide the required reliability, so that there will always be 
one on station. In other places, we can service them at more 
regular intervals than we can in the Aleutian Islands.
    Senator Murray. Okay. Well, I appreciate that. And if you 
could maybe just, in writing, get back to the subcommittee on 
what kind of gaps remain and what we need to do to address 
them, because I was very concerned when I saw that GAO report, 
and the impact it could have on our being prepared for a 
tsunami on any of our coasts, but particularly where I live, 
out in the--out in Washington State. So, if you could----
    Admiral Lautenbacher. I'd be pleased to do that.
    [The information follows:]

         Addressing the Gaps Remaining in Tsunami Preparedness

    In response to the December 2004 Indian Ocean Tsunami, the 
Administration has made a commitment to strengthen the Nation's tsunami 
warning program. The fiscal year 2007 budget request continues the 
Administration's commitment to this mandate--with its goal to eliminate 
``gaps'' in our ability to accurately and effectively detect tsunamis, 
issue timely and effective warnings and mitigate tsunami hazards 
through community-based tsunami preparedness programs. The overarching 
focus of this multi-year effort embraces the three integrated 
components of the National Tsunami Mitigation Program: (1) Improving 
Tsunami Warning Guidance; (2) Improving Tsunami Hazard Assessment; and 
(3) Improving Tsunami Mitigation. Financially, NOAA's initial efforts 
in strengthening the U.S. Tsunami Warning System have been on improving 
tsunami warning guidance. This has included expanding NOAA's Deep-ocean 
Assessment and Reporting of Tsunamis (DART) network, expanding/
upgrading NOAA's sea-level reporting network, expanding and upgrading 
NOAA's seismic networks, and upgrading the operations of NOAA's two 
Tsunami Warning Centers to 24/7 operations. Funds provided to the U.S. 
Geological Survey (USGS) have led to improved global earthquake 
detection and faster reporting of earthquake data for tsunami warning.
    NOAA is also expanding and accelerating its tsunami inundation, 
mapping, modeling and forecast efforts. NOAA has embarked upon an 
accelerated and expanded program to collect bathymetric data along 
vulnerable U.S. coastlines and develop detailed community-based tsunami 
inundation maps and tsunami inundation forecast models for the most at-
risk U.S. coastal communities (74 total models). By the end of fiscal 
year 2006, we are scheduled to complete 8 additional models, for a 
total of 17. With sustained funding, 9 more models will be added in 
fiscal year 2007 and the forecast operating system software will be 
transferred to the tsunami warning centers. We project completion of 
this national effort during fiscal year 2012.
    In response to its mandate to improve tsunami mitigation/
preparedness NOAA has increased the number of TsunamiReady communities/
locations to 27, which is an 80 percent increase above the December 
2004 number. NOAA is committed to working with every at-risk community 
to help make them TsunamiReady.
    The GAO Report focuses primarily on tsunami preparedness and hazard 
mitigation and proposes the following recommendations--all of which 
NOAA is adopting:
  --Work with the Federal Emergency Management Agency (FEMA) Director 
        and the USGS Director to create standardized tsunami loss 
        estimation software to help communities determine the potential 
        impact of tsunamis and identify appropriate mitigation actions;
  --Reduce the number of tsunami warning false alarms by (1) completing 
        the planned expansion of tsunami detection stations, (2) 
        reexamining NWS's rules dictating when a warning will be issued 
        and to what areas, (3) establishing a routine process for other 
        federal and state experts to formally review and comment on the 
        center's use of seismic data, and (4) setting performance goals 
        to guide improvements;
  --Work with the states to conduct periodic end-to-end tests of the 
        tsunami warning system, including NOAA Weather Radio and the 
        Emergency Alert System, to ensure the system will function as 
        intended during a tsunami emergency;
  --Evaluate the TsunamiReady program to determine what barriers, if 
        any, exist to participation and what modifications are needed 
        to encourage more high-risk communities to participate;
  --Evaluate the National Tsunami Hazard Mitigation Program (NTHMP) to 
        determine what has worked well in the past and what high 
        priority activities remain to be completed and to help inform 
        strategic planning efforts;
  --Develop comprehensive risk-based strategic plans for the Tsunami 
        Program and NTHMP that consider input from states and federal 
        partners and include metrics for measuring progress toward 
        achieving program goals.
    We will forward for the Committee's review a copy of the DOC/NOAA 
response to the GAO Report as soon as it has been cleared. Our response 
to the GAO report will acknowledge that NOAA's focus will remain on the 
high risk locations. As the GAO acknowledges, achieving comprehensive 
community-based tsunami preparedness programs for all at-risk U.S. 
coastal communities will require an integrated effort of multiple 
Federal Agencies (NOAA, USGS, FEMA, and the National Science 
Foundation) and State and local government participation to achieve 
program goals.

                       NOTIFICATION OF GOVERNORS

    Admiral Lautenbacher. And regarding the point about making 
sure that everybody is prepared--I have been asked by the House 
Appropriations Committee to call every Governor to tell them 
the status of the program, which I have done, and I have 
contacted your Governor, as well as those in----
    Senator Murray. Thank you.
    Admiral Lautenbacher [continuing]. Oregon and California--
and will continue--I take this very seriously, and we will 
continue to do everything we can to provide the Federal piece 
of the warning system. Thank you for----
    Senator Murray. Thank you----
    Admiral Lautenbacher [continuing]. Your attention.
    Senator Murray [continuing]. Very much. Appreciate it.

                           WEATHER PREDICTION

    Senator Shelby. I have some more questions, for the record 
here, and I'll try to run through them.
    What are the U.S. strengths and weaknesses in weather 
prediction, Admiral?
    Admiral Lautenbacher. Okay, from my perspective, I think 
that we are very strong in our observing systems. We have good 
satellites. We have good control of the assets that we use. We 
have excellent prediction centers. So, the strengths, in terms 
of the ability to bring science into an operational part of our 
setup, are extremely good. We have good international 
relationships. We take advantage of other----
    Senator Shelby. How do we----
    Admiral Lautenbacher [continuing]. Information----
    Senator Shelby [continuing]. Compare with Europe as far as 
predictions?
    Admiral Lautenbacher. I think we're on a comparable 
footing. It's not exactly an apples to oranges comparison, but 
we do well. Now, Europe has a different mechanism. They've----
    Senator Shelby. Sure.
    Admiral Lautenbacher [continuing]. Combined their agencies 
to have a European Center for Medium Weather Forecasting.
    Senator Shelby. They have different risks, too, don't they?
    Admiral Lautenbacher. Sir?
    Senator Shelby. Have different risk.
    Admiral Lautenbacher. How the different----
    Senator Shelby. The risk is different in Europe.
    Admiral Lautenbacher. Certainly, the risk is different----
    Senator Shelby. Yeah.
    Admiral Lautenbacher [continuing]. In Europe. They have 
different storms and types of weather conditions to worry 
about. But I am always interested in creating bigger and better 
modeling centers, more computing power. So, I think we need to 
work, in the future, on developing our computing power. I've 
brought that recommendation forward within the administration, 
as well as within the scientific community.
    Senator Shelby. How do you intend to integrate new remote 
sensing technology to advance your Nation's storm forecasting?
    Admiral Lautenbacher. Remote sensing capability can be 
difficult, because there's a large amount of information that 
comes in from this technology. So, what we have created is a 
Joint Center for Data Assimilation with NASA and the Department 
of Defense to take this data into a single combined 
organization that allows us to then parse it out and put it in 
models. Dr. Uccellini is a key part of that issue of 
incorporating new data as quickly as possible into our models.
    Senator Shelby. As both of you well know better than I, 
severe weather comes in many forms, not just hurricanes. So far 
this year, 724 tornados have been reported in the United 
States, according to NOAA's Prediction Center. Preliminary 
reports show these events have resulted in at least 52 deaths. 
I understand that you're working to ensure that citizens are 
better informed about dangerous weather, because it saves 
lives, saves property and everything else. What's the most 
effective strategy for decreasing severe-storm-related deaths, 
in your judgment?
    Admiral Lautenbacher. In my judgment, it's preparation, 
it's people understanding what the risks are and being prepared 
to act when they get information. And next, they need the 
information, and I'm always advertising NOAA Weather Radio as a 
way to get the information.

                         STORM SURGE FORECASTS

    Senator Shelby. During Hurricane Katrina, much of the 
damage in my State of Alabama, and a lot more in Mississippi, 
was caused by storm surge. In some communities, the water 
levels were higher than 20 feet. Can you tell us what NOAA is 
doing to improve storm surge forecasts? And how can you 
highlight some efforts to improve forecasts for inland flooding 
caused by heavy rains during hurricanes, you know, as the 
aftermath of this?
    Admiral Lautenbacher. Yes, and as we mentioned, we have a 
model called SLOSH (Sea, Land and Overland Surges from 
Hurricanes), that we use today. It's a rudimentary model, but 
we are trying to make it better.
    Senator Shelby. Is it working?
    Admiral Lautenbacher. It works. Yes, it does work. Does it 
work accurately all the time, in every place? The answer is----
    Senator Mikulski. No.
    Admiral Lautenbacher [continuing]. No. So, we need to 
improve it. You have given us some funding to help us do that.
    Senator Shelby. You need more funding in that area?
    Admiral Lautenbacher. I think----
    Senator Shelby. Senator Mikulski was asking you a 
specific--I'm going to ask you a specific--do you need more----
    Admiral Lautenbacher. I think we have the money we need to 
improve that model, and I would like to have Dr. Uccellini and 
our folks work on----
    Senator Shelby. Work with the staff.
    Admiral Lautenbacher [continuing]. The improvements----
    Senator Shelby. The model.
    Admiral Lautenbacher. The model, itself.
    Senator Shelby. Okay.
    Admiral Lautenbacher. Because we have some money to improve 
that model, and we have some money to incorporate better 
models, in the future. So, you have given us help in doing 
that, and we are grateful for it, and we're going to take 
action on it.

                      COASTAL ZONE MANAGEMENT ACT

    Senator Shelby. The Coastal Zone Management Act requires 
NOAA to assist States in managing coastal development in order 
to minimize the loss of life and property caused by improper 
development in hazardous areas. You know, there's a lot of 
horror stories here. Under the Coastal Zone Management Act, 
each State receives approximately $2 million annually to 
address coastal hazards, in addition to other competitive 
priorities, such as water quality and public access. Is the 
Coastal Zone Management Act funding providing enough to achieve 
the goals of the act, is this just a pittance?
    Admiral Lautenbacher. That's a very broad question. It has 
worked fairly well, because the object of the act was to 
develop consistent plans between the Federal and the State 
governments so that we would have a consistency principle 
around the coast.
    Senator Shelby. Sure.
    Admiral Lautenbacher. Now, if you ask the States, they will 
tell us that they can always use more, certainly, in working in 
these areas. But the object of the act was to try to build a 
consistent plan that allows us to develop properly and with 
some consistency around our Nation, and that seems to be 
working fairly well. The act, itself, is well constructed.
    Senator Shelby. Are States afforded sufficient authority to 
establish priorities for the selection and funding of coastal 
hazards mitigation projects?
    Admiral Lautenbacher. I think the act represents the----
    Senator Shelby. In other words, do they have the power?
    Admiral Lautenbacher. Yes, they do. There is a reasonable 
balance for them to act and provide the money for projects that 
they think are important to them.
    Senator Shelby. NOAA struggled to release funds in the 
previous December 2005 supplemental, but we were assured by the 
Secretary of Commerce that that's been resolved. Does NOAA 
foresee any problems distributing funds from the latest 
supplemental?
    Admiral Lautenbacher. No, sir, we do not. From the most 
recent one that was given to us in December, we have 
distributed all of those funds, and we are preparing so that, 
when the next one is ready, we will spring into action. We have 
set ourselves up to try to do it as quickly as possible.

       NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION PRIORITIES

    Senator Shelby. As both of you know, we're working on the 
2007 appropriations bill--Senator Mikulski and our staff and 
members of the committee. But in supporting your overall 
mission to monitor and to forecast hurricanes, which we believe 
is very important to the American people, what are your top 
priorities, just in a nutshell?
    Admiral Lautenbacher. My priorities, first of all, are to 
take care of the people. We have to recognize that, while we 
have these wonderful technological inventions that we use, it's 
the skill of the forecasters in using that information that's 
critical. I'm delighted that we have a good union that supports 
the work that we do. And to support the people that we have is 
my top issue.
    Beyond that, I would like to make strong representation for 
our satellite programs. Our satellite programs are critical to 
the Nation, and we spend a lot of time working on trying to 
keep them going. So, the increases for the satellite programs 
are very important. And then, the sensors and the modeling 
programs that we have.
    I think those are all critical, and there are increases for 
each of those in our 2007 budget.
    Senator Shelby. Well, during the hurricane season, I think 
you--NOAA stood out as doing great work, wouldn't you think, 
Senator Mikulski? And we want to commend you, again, for that, 
and we want to make sure that you have adequate funding to 
carry your job out.
    We thank you both for your cooperation with the 
subcommittee. We'll continue to work with you.
    We have some Senators that are tied up on the floor that 
have asked to submit questions to you for the record, and we'd 
ask that you respond to them no later than July 22, 2006.

                         CONCLUSION OF HEARING

    And, other than that, this subcommittee will stand in 
recess.
    [Whereupon, at 11:28 a.m., Wednesday, June 7, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
